                                       ADVISORY




    RECOVERY OVERSIGHT ADVISORY
    Weber Siphon Complex




Report No.: ROO-ROA-USBR-4002-2010   December 2010
                                                                                                                     ,
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S.DEPt>..RTMENT OF THE INTERIOR




To:               Chris Henderson



             ~o~rt~l£o~
                   en'   Advisor to the Secretary for Economic Recovery and Stimulus

From:
                  Assistant Inspector General for Recovery Oversight

Subject:          Recovery Oversight Advisory-Weber Siphon Complex
                  Report No. ROO-ROA-USBR-4002-2010

        The Office of Inspector General reviewed allegations regarding the use of American
Recovery and Reinvestment Act (ARRA) funds by the Bureau of Reclamation (USBR) for the
expansion of the Weber Siphon Complex (WSC). This is part of our ongoing efforts to oversee
and ensure the accountability of funding appropriated to the U.S. Department of the Interior
(DOl). Our review of documents, interviews, and analyses did not substantiate any of the
allegations or identify any wasteful spending for the expansion of the WSC.

        We will post this advisory on our Web site (www.doioig.gov/recoveryl) and
Recovery.gov. Information contained in this advisory may also be included in our semiannual
reports to Congress. Please contact me if you have any questions.

Background

        In 2004, USBR Pacific Northwest Region, Washington State, the South Columbia Basin
Irrigation District, the East Columbia Basin Irrigation District, and the Quincy-Columbia Basin
Irrigation District signed a memorandum of understanding (MOU) to work collaboratively to
secure ecoriomic and environmental benefits to improve water management within the Colombia
Basin Project (CBP) and along the mainstream of the Columbia River.! Section 14 of the MOU,
titled Odessa Subarea, stated that the parties would cooperate to support and pursue the diversion
and delivery of an additional 30,000 acre feet of water from Lake Roosevelt to existing
agricultural lands in the Odessa Subarea, with priority given to lands currently irrigated under
state groundwater permits in areas where the Odessa aquifer is declining. 2

        Based on the MOU, the Washington State Legislature (Legislature) created the Columbia
River Basin Water Management Program in 2006. 3 The Legislature recognized a key priority for
water resource management in the Columbia River Basin (CRB) was the development of new
water supplies that included storage and conservation. The Legislature declared that a CRB water
supply development program was needed and directed the State of Washington Department of

1 Memorandum of Understanding Concerning the State of Washington's Columbia River Initiative. December 7.2004. p. 1.
2 [d. at p. !4.
3 EGgrossed Second Substitute House Bill 2860. Chapter 6. Laws of2006. 59" Legislature. 2006 Regular Session. Columbia
River Basin-Water Supply. July 1,2006.
Ecology (Ecology) to aggressively pursue the development of water supplies to benefit both in-
stream and out-of-stream uses. 4 The Legislature directed Ecology to focus its efforts on four
specific needs, one of which was alternatives to groundwater for agricultural users in the Odessa
Subarea aquifer. 5 Out of that legislation and in partnership with USBR, the Lake Roosevelt
Incremental Storage Releases Project (LRISRP) alternative was developed. On August 29, 2008,
Ecology published their final supplemental Environmental Impact Statement (EIS) for the
preferred LRISRP alternative, which evaluated the impact of, among other factors, the release of
30,000 acre-feet of water from Lake Roosevelt to irrigate 10,000 acres in the Odessa Subarea
with groundwater from declining aquifers. 6

         In parallel with Ecology’s EIS, USBR completed their LRISRP Finding of No Significant
Impact and Environmental Assessment (EA) in June 2009. The EA evaluated two alternatives:
the No Action alternative, under which no incremental storage releases would be made from
Lake Roosevelt and the reservoir would continue to operate under existing conditions; and the
LRISRP alternative, which included providing replacement for some of the groundwater used in
the Odessa Subarea. 7 Based on the environmental analysis presented in the final EA, USBR
selected the LRISRP alternative as the recommended alternative for implementation. The WSC,
however, was identified as an obstacle to the plan. 8 USBR determined that water delivery from
Lake Roosevelt to the Odessa Subarea would require improvements to the WSC, which would
result in water delivery to users located south of Interstate 90 (I-90), where the greatest declines
in groundwater levels occur and where there is the highest demand for replacement water
supplies. 9

       On March 19, 2009, USBR requested $48,000,000 in ARRA funding for the expansion of
the WSC. On September 30, 2009, a construction contract was awarded. According to the
construction project plan, the expansion of the WSC will be completed by fall 2011 and within
the timeline mandated by the ARRA.

Economic Issues:

        Allegation #1: The $50 million in ARRA funding is very likely to be wasted because the
cost of the siphon expansion designed to irrigate the Odessa Subarea cannot meet the Federal
standards of economic and financial feasibility. 10 Complainant believes that, based on an
economic cost benefit analysis of the contract award amount for the WSC expansion and other
publicly available information, the benefit to cost ratio would be approximately $.30/1, far below
the required ratio of $1/$1, pursuant to the Principles and Guidelines for Federal Water
Resources Planning.

4
  Id. at p. 1.
5
  Id. at p. 3.
6
  State of Washington, Department of Ecology, Lake Roosevelt Incremental Storage Releases Project Final Supplemental EIS,
August 29, 2008, p. S-1.
7
  Bureau of Reclamation. Lake Roosevelt Incremental Storage Release Program Finding of No Significant Impact and Final
Environmental Assessment, June 2009, p. 1
8
  Id. at p. 2.
9
  Id. at p. 13.
10
   GAO FraudNet Complaint; Email from Mr. Walter R. Butcher, “Questionable use of Recovery Funds,” 4:18PM, September
14, 2009 and associated document entitled, Economics of Irrigation Investment for the Odessa Subarea, by Butcher, Walter R.
and Whittlesey, Norman K., Pullman, WA, August 2009.

                                                                                                                              2
        Finding: Construction of the Grand Coulee Dam project was authorized by the Act of
August 30, 1935. 11 Pursuant to the Columbia Basin Project Act of March 10, 1943 (Act), 12 the
project was reauthorized and renamed the Columbia Basin Project (CBP). The Act further
subjected the project to the requirements of the Reclamation Project Act of 1939. 13 Specifically,
it prohibited any expenditure for the construction of certain projects until the Secretary of the
Interior investigated and submitted a report and findings to the President and to Congress.

        Before the Secretary could undertake the project, the Secretary was required to make
certain determinations. First, the Secretary had to find that the proposed construction had
engineering feasibility. Second, the repayable and returnable allocations for irrigation, power,
and municipal water supply or other miscellaneous purposes found proper by the Secretary,
together with any allocation for flood control or navigation, had to equal the total estimated costs
of construction. Those requirements, applicable to the Weber siphon expansion and irrigation
development of the Columbia Basin Project, were met in 1945 upon the transmittal of House
Document 172 (HD172) by the Secretary of the Interior to the President and Congress. Congress
validated the continued irrigation development of the CBP using a phased development
approach, and the Secretary is authorized to plan and continue the irrigation development to the
project lands not yet served, as specified in the repayment contracts with Irrigation Districts and
HD172.

        Allegation #2: USBR’s “project statement is misleading.” The existing capacity of the
siphon is not a bottleneck to the supply of water to the 670,000 acres now being irrigated in the
CBP. 14

        Finding: USBR’s analysis supports the expansion. USBR determined the WSC
expansion is required to increase the capacity of the siphons. It would allow an additional flow of
30,000 acre feet of CBP water called for under the LRISRP. We did not find sufficient evidence
to overrule USBR’s judgment. The expansion of the WSC will result in the irrigation of
approximately 10,000 additional acres in the Odessa Subarea with declining aquifers south of I-
90.

       Allegation #3: The only possible beneficial use of the siphon’s added capacity is to be a
component in the system of canals, siphons, pumping stations, and laterals that have been
designed to convey CBP water from the siphon outlet and deliver it to the Odessa Subarea for the
continuing development of the CBP.

       Finding: While opinions may differ on the benefits of the expansion, the expenditure
was authorized upon transmittal of HD 172. No other construction, at taxpayer expense, is called
for under the LRISRP. This allegation is based on the misconception that the expansion of the
WSC is tied directly to the Odessa Subarea Special Study (OSSS). The LRISRP and OSSS are



11
   49 Stat. 1028.
12
   57 Stat. 14, Pub. L. No. 78-8.
13
   Act of August 4, 1939, ch. 418, 53 Stat. 1187.
14
   Id., p. 1.

                                                                                                     3
separate projects. 15 USBR is currently conducting an OSSS to determine the economics of
delivering CBP water to the entire Odessa Subarea, and the study will not be completed until
2011. If the OSSS determines it to be economical to construct a system of canals, siphons,
pumping stations, and laterals to deliver CBP water to the entire Odessa Subarea, then the
expanded WSC would be a component of that overall plan.

Environmental Issues:

       Allegation #4: In a letter to the OIG, the Center for Environmental Law & Policy,
Columbia Riverkeeper and the Sierra Club (collectively known as CELP) cited USBR’s failure
to conduct a National Environmental Policy Act (NEPA) analysis prior to allocation of ARRA
funding to the Weber Siphon project. 16

        Finding: The CELP stated that the WSC project involves the construction of the “second
barrel” in order to expand irrigation to 140,000 acres located outside the current service area of
the CBP. The 140,000 acres is a reference to the on-going OSSS. As detailed previously in this
report, the LRISRP is a standalone program and not tied to the OSSS.

       A NEPA analysis was completed for the LRISRP, under which the expansion of the
WSC was deemed necessary. The LRISRP was developed through a partnership between
Ecology and USBR. In June 2009, USBR published an EA for the LRISRP based upon the
proposed action, as described in Ecology’s supplemental EIS prepared pursuant to the State
Environmental Policy Act. As authorized by the Council on Environmental Quality regulations
implementing NEPA, USBR incorporated the description of Ecology’s proposed action from
Ecology’s supplemental EIS by reference.

Conclusion

       USBR followed all regulatory and statutory requirements for the ARRA funded project.
Given the multiple economic and environmental interests for and against the project, we
understand consensus is difficult to achieve but no evidence was uncovered to indicate misuse of
ARRA funds. No action or response is requested for this advisory.

cc:       Deputy Secretary, Department of the Interior
          Commissioner, Bureau of Reclamation
          Assistant Secretary – Policy, Management, and Budget
          Director, Office of Acquisition and Property Management
          Acting Director, Office of Financial Management
          Departmental GAO/OIG Audit Liaison
          Audit Liaison, Office of the Secretary
          Recovery Coordinator, Bureau of Reclamation



15
   Bureau of Reclamation. Lake Roosevelt Incremental Storage Release Program Finding of No Significant Impact and Final
Environmental Assessment. June 2009. Page5
16
   Center for Environmental Law & Policy, et al., Letter to the Office of Inspector General, Department of the Interior, dated
April 2, 2010.

                                                                                                                                 4
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
